REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
  CONTROLS AND TESTING OF CONTROLS
    EUROPEAN CLIENT SUPPORT CENTER
    REPORT NUMBER A050009/T/6/Z05019

              May 18, 2005
    Date     :   May 18, 2005

    Reply to
    Attn of :    Heartland Region Field Audit Office (JA-6)

    Subject :    Review of Federal Technology Service’s Client Support Center Controls
                 and Testing of Controls – European Client Support Center
                 Report Number A050009/T/6/Z05019

    To       :   Bradley M. Scott
                 Regional Administrator (6A)

                 Barbara L. Shelton
c                Acting Commissioner, Federal Technology Service (T)

    This report presents the results of the Office of Inspector General’s audit of the Federal
    Technology Service (FTS) European Client Support Center (ECSC). The Ronald W.
    Reagan National Defense Authorization Act for Fiscal Year 2005 (Public Law 108-375)
    directed the Inspectors General of the General Services Administration (GSA OIG) and
    the Department of Defense (DOD OIG) to jointly perform a review of each FTS CSC
    and determine whether each CSC is compliant, not compliant, or not compliant but
    making significant progress, with Defense procurement requirements.

    Objectives, Scope and Methodology

    To review the adequacy of policies, procedures, and internal controls in each CSC, we
    analyzed a random sample of procurement actions executed between August 1, 2004
    through October 31, 2004. We also analyzed a judgmental sample of existing orders
    and the steps taken to remediate any past problems in these existing orders. For the
    ECSC, our sample included 11 new awards and 2 existing orders, valued at $16 million
    and $8 million, respectively. The audit was conducted between October 2004 and
    March 2005, in accordance with generally accepted Government auditing standards.

    Results of Audit

    We determined the ECSC to be compliant with Defense procurement requirements.
    The ECSC has implemented national controls identified in the Administrator’s Get it
    Right Plan, and has improved its overall contracting practices. We did not find any
    instances of non-compliance with Defense procurement requirements. As directed in
    the Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005,
    because the ECSC is compliant, we are not required to perform a subsequent audit of
    ECSC contracting practices.




                                               1
Internal Controls

We assessed the internal controls relevant to the ECSC's procurements to ensure that
the procurements were made in accordance with the Federal Acquisition Regulation,
and the terms and conditions of the contracts utilized.     We have seen substantial
improvements in internal controls, and did not find any procurement deficiencies during
this review.

If you have any questions regarding the report, please contact Elaine Helphrey or me at
(816) 926-7052.

                    -



\'(Sr\_~~, '~~J).~--Lt
Erin P. Priddy            6"
Audit Manager
Heartland Region




                                           2
APPENDIX
                 REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
                         CLIENT SUPPORT CENTER
                   CONTROLS AND TESTING OF CONTROLS
                     EUROPEAN CLIENT SUPPORT CENTER
                     REPORT NUMBER A050009/T/6/Z05019



                               REPORT DISTRIBUTION

                                                                    Copies

Acting Commissioner, Federal Technology Service (T)                    3

Regional Administrator (6A)                                            3

Assistant Inspector General for Auditing (JA & JAO)                    2

Assistant Regional Inspector General for Investigations (JI-5/KC)      1




                                        A-1
